NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




           REPORT TO CONGRESS

        April 1, 2003 – September 30, 2003
OIG Semiannual Report                                                       September 2003




              INSPECTOR GENERAL'S MESSAGE TO
             THE NCUA BOARD AND THE CONGRESS

It is my pleasure to submit this semiannual report on the accomplishments of the
National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) for the six- month period ending September 30, 2003. While this report
summarizes the major activities of the OIG during this reporting period, it is my
hope that the renewed vigor and focus that the OIG has strived to achieve is
likewise reflected in our reported accomplishments.

The OIG’s values-driven approach to the challenges and issues it faced during this
reporting period was developed during a strategic planning conference we
convened shortly after I was appointed Inspector General last year. In addition to
planning significant projects for 2003, that conference emphasized an invigoration
of our sense of excellence, innovation, and integrity—both to our statutory
responsibilities under the Inspector General Act of 1978, as amended, as well as
to promoting improvements within the agency. Accordingly, during the last
reporting period we implemented significant structural and policy changes within
the OIG, and relied upon those changes to infuse our audit and investigative work
with renewed professionalism and a more profound sense of leadership.

While we continued to emphasize our independent voice within NCUA and to the
Congress by identifying opportunities and promoting solutions for improved
performance of NCUA programs, we also focused on clarification and mutual
understanding of our unique role within the agency. Accordingly, we devoted
significant time during this reporting period to working with agency management
at all levels to substantially revise an agency- issued directive covering all matters
that must be reported to the OIG, as well as the OIG’s responsibilities in hand ling
those investigative matters. The end result of that cooperative effort was a
directive that clarified the roles and responsibilities of all employees and that shed
light on the OIG’s statutory responsibilities and how it fulfills them.

Moreover, by continuing to focus on our efforts to integrate the agency’s goals
and challenges with our statutory mission, we completed a review of NCUA’s
process for dealing with credit union member complaints and, again working in
tandem with agency management, refined and clarified existing procedures to
more closely align with applicable law and regulations and render the process
more effective and efficient.


                                          i
OIG Semiannual Report                                                   September 2003



Finally, as this report marks the completion of my first year as NCUA’s Inspector
General, I would like to thank the NCUA Board and my dedicated staff for their
support, hard work and cooperation. I would also like to extend my gratitude to
President Bush and the Congress for their recent recognition of the 25th
anniversary of the IG Act. Of particular note, it was my great pleasure and honor
to meet, together with my fellow inspectors general, with the President on
October 14, 2003. Our dialog and his words of encouragement and support for
the IG community were truly an inspiration.




                               Herbert S. Yolles
                               Inspector General




                                       ii
OIG Semiannual Report                                                                                       September 2003


                                             TABLE OF CONTENTS

INSPECTOR GENERAL’S MESSAGE……………………………………………...                                                                                i

NCUA AND OFFICE OF INSPECTOR GENERAL MISSION STATEMENTS…...                                                                    1

INTRODUCTION……………………………………………………………………..                                                                                       2

NCUA ORGANIZATION CHART……...…………………………………………...                                                                                4

NCUA HIGHLIGHTS…...............................................................................................                5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS.......................................                                               7

LEGISLATIVE HIGHLIGHTS....................................................................................                     8

OFFICE OF THE INSPECTOR GENERAL................................................................                                10

          Audit Activity....................................................................................................   11

          Investigative Activity…….................................................................................            16

          Legislative and Regulatory Reviews……….....................................................                           19

TABLE I – REPORTS WITH QUESTIONED COSTS…………………...................                                                              21

TABLE II – REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT
TO BETTER USE.........................................................................................................         22

TABLE III – SUMMARY OF OIG ACTIVITY...........................................................                                 23

INDEX OF REPORTING REQUIREMENTS………………………………………..                                                                               24
OIG Semiannual Report                                  September 2003


                        MISSION STATEMENTS




                          THE NCUA MISSION
OUR CHARGE IS TO FOSTER THE SAFETY AND SOUNDNESS OF FEDERALLY INSURED
CREDIT UNIONS AND TO BETTER ENABLE THE CREDIT UNION COMMUNITY TO EXTEND
AVAILABILITY OF FINANCIAL SERVICES FOR PROVIDENT AND PRODUCTIVE PURPOSES
TO ALL WHO SEEK SUCH SERVICE, WHILE RECOGNIZING AND ENCOURAGING THE
HISTORICAL EMPHASIS BY CREDIT UNIONS ON EXTENSION OF FINANCIAL SERVICES TO
THOSE OF MODEST MEANS.

WE DO THIS BY MANAGING THE SHARE INSURANCE FUND IN AN EFFICIENT AND
PRUDENT MANNER AND ESTABLISHING A REGULATORY ENVIRONMENT THAT
ENCOURAGES INNOVATION, FLEXIBILITY, AND CONTINUED FOCUS ON ATTRACTING
NEW MEMBERS AND IMPROVING FINANCIAL SERVICE TO EXISTING MEMBERS.




            THE OFFICE OF INSPECTOR GENERAL MISSION
THE OIG PROMOTES THE ECONOMY, EFFICIENCY, AND EFFECTIVENESS OF NCUA
PROGRAMS AND OPERATIONS, AND DETECTS AND DETERS FRAUD, WASTE, AND ABUSE,
THEREBY SUPPORTING NCUA’S MISSION OF MONITORING AND PROMOTING SAFE AND
SOUND FEDERALLY INSURED CREDIT UNIONS.

WE ACCOMPLISH OUR MISSION BY CONDUCTING INDEPENDENT AUDITS,
INVESTIGATIONS, AND OTHER ACTIVITES, AND BY KEEPING THE NCUA BOARD AND THE
CONGRESS FULLY AND CURRENTLY INFORMED OF OUR WORK.




                                    1
OIG Semiannual Report                                                      September 2003


                                 INTRODUCTION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded by
the credit unions it supervises and insures. As of June 30, 2003, the NCUA was
supervising and insuring 5,864 federal credit unions and insuring 3,665 state-chartered
credit unions, a total of 9,529 institutions. This represents a loss of 89 federal and 70
state-chartered institutions since December 31, 2002, for a total loss of 159 credit unions
nationwide.


                              Federally Insured Credit Unions



     12000
     10000
               4257    4180     4062
       8000                             3980     3866   3735     3665
       6000                                                                       FISCUs
       4000 6981                                                                  FCUs
                       6815     6566    6336     6118   5953     5864
       2000
           0
               1997    1998     1999    2000     2001   2002     2003

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, including
the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Fund.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California. NCUA also
operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
refer to the NCUA organizational chart on page 4.

The NCUA Board adopted its 2003 budget on November 21, 2002. The final revised
2003 budget of $146,079,711 represents a decrease of $887,750 from the 2002 budget.
The Full Time Equivalent (FTE) staffing authorization for 2003 is 971, a reduction of 24
positions over the 2002 total of 995.


                                             2
OIG Semiannual Report                                                  September 2003



                                      NCUA Budget Dollars

       Millions
           160
           140
           120
           100
            80
            60
            40
            20
             0
                   1997      1998      1999       2000   2001   2002   2003




                                    NCUA Authorized Staff

    1200

    1000

     800

     600

     400

     200

       0
            1997          1998       1999     2000       2001   2002     2003




                                              3
OIG Semiannual Report                      September 2003



                 NCUA ORGANIZATION CHART




                            4
OIG Semiannual Report                                                    September 2003



                             NCUA HIGHLIGHTS

REVISIONS TO MEMBER BUSINESS LENDING REGULATION ADOPTED

In its open monthly meeting on September 24, 2003, the NCUA Board voted
unanimously to issue revisions to the agency’s member business lending rule for
federally insured credit unions.      The revised rule will allow federal credit unions
increased flexibility in making loans to small businesses. The rule comes after agency
leadership formed an internal working group on member business lending and directed
staff to review the last several years of experience under NCUA’s rule and comparable
state rules.

GAO CALLS FOR FTC TO OVERSEE PRIVATELY INSURED CREDIT
UNIONS

In a report issued on August 21, 2003, the General Accounting Office (GAO), noting that
many privately insured credit unions are not providing disclosures to consumers,
suggested that Congress consider clarifying the authority of the Federal Trade
Commission (FTC) so that it can fulfill the oversight responsibility assigned it under the
1991 thrift bailout law. The GAO report found that many privately insured credit unions
did not adequately disclose that they were not federally insured. NCUA Chairman
Dennis Dollar stated that he was pleased with the results of the GAO study, calling it
thorough and consistent with NCUA’s long- held position on the enforcement of certain
consumer protection rules.

AMERICAN BANKERS ASSOCIATION BRINGS SUIT AGAINST NCUA

On July 5, 2003, the American Bankers Association (ABA), the Utah Bankers
Association, and four individual banks, filed suit against the NCUA challenging the
agency’s approval of a Utah credit union’s community-charter expansion and two federal
charter conversions. The plaintiffs contend that NCUA went outside its authority in
approving the fields of membership conversion requests, claiming that the actions
exceeded the law’s definition of what constitutes a “local community.” The statute in
question, the 1998 Credit Union Membership Access Act, invests the NCUA Board with
the discretion to determine the specifics of “local community.”




                                            5
OIG Semiannual Report                                                      September 2003


NCUA RELEASES REALIGNMENT TRANSITION PLAN SUMMARY

The NCUA released a summary of its Realignment Transition Plan this past summer,
providing a timeline for the agency’s transition from six regional offices to five, and the
relocation of its California office to Arizona. The realignment, announced initially in
January, is part of Chairman Dollar’s “Accountability in Management” (AIM) initiative,
an effort to increase agency efficiency.

NCUA BOARD SETS FINAL RULE ON FOREIGN BRANCHING

The NCUA promulgated a new rule, effective July 1, 2003, that set requirements for
federally insured, non- military credit unions seeking to establish branch facilities outside
the United States. The rule addresses approval for the branch, its supervision, and federal
insurance for deposits in the branch. It also deals with the host foreign country’s need for
input to the approval process.

NCUA JOINS FEDERAL AGENCIES IN PUBLISHING CONSUMER
BROCHURE ON PREDATORY LENDING

The Federal Interagency Task Force on Fair Lending, of which NCUA is a participant,
has published a new brochure--“Putting Your Home on the Loan Line is Risky
Business”--that alerts consumers to potential borrowing pitfalls, including high-cost
home loans, and provides tips for getting the best financing deal possible.




                                             6
OIG Semiannual Report                                                     September 2003


   FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


C
       redit unions submit quarterly call reports (financial and operational data) to
       NCUA. An NCUA staff assessment of the June 30, 2003, quarterly call reports
       submitted by all federally insured credit unions found that virtually all key
       financial indicators were stable.

KEY FINANCIAL INDICATORS STABLE

Looking at the June 30, 2003 quarterly statistics for major balance sheet items and key
ratios shows the following for the nation’s 9,529 federally insured credit unions: assets
grew 7.6 percent, or $42.1 billion; net worth to assets ratio decreased from 10.7 percent
to 10.5 percent; the loan to share ratio decreased from 70.8 percent to 67.9 percent; the
delinquency ratio decreased from .80 to .74 percent ; and credit union return on average
assets decreased from 1.1 percent to 1.0 percent.

SAVINGS INCREASED DURING THE FIRST SIX MONTHS OF 2003

Total share accounts increased 7.6 percent, or $37.0 billion; share drafts increased 10.5
percent; regular shares increased 9.8 percent; share certificates increased 1.8 percent;
money market shares grew 9.7 percent; IRA/KEOGH accounts grew 5.8 percent; and
other shares increased 22.4 percent. However, non- member deposits decreased .8
percent.

LOANS AND INVESTMENTS ALSO INCREASED DURING 2003

Loan growth of 3.3 percent resulted in an increase in total loans by $11.1 billion. First
mortgage real estate loans increased $7.2 billion or 7.1 percent; used auto loans increased
$5.1 billion or 7.0 percent; other real estate loans increased $300 million or .7 percent;
unsecured credit card loans decreased $1.1 billion or 5.0 percent; all other unsecured
loans decreased $700 million or 3.4 percent; new auto loans decreased $200 million or .3
percent; leases receivable decreased $33.6 million or 2.2 percent; and all other loans
increased $600 million or 3.0 percent. First mortgage real estate loans are the largest
single asset category with $107.9 billion accounting for 30.5 percent of all loans. Total
investments increased $17.0 billion or 12.1 percent. All investment categories displayed
growth. Investments in government securities of $84.7 billion account for 54 percent of
all credit union investments.




                                            7
OIG Semiannual Report                                                     September 2003



                       LEGISLATIVE HIGHLIGHTS




FY 2004 APPROPRIATIONS UPDATE

On July 25, 2003, the House passed the Fiscal Year 2004 VA/HUD and Independent
Agencie s Appropriations bill (H.R. 2861) by a vote of 316-109. Included in the bill is the
$1.5 billion cap on the Central Liquidity Facility (CLF) fund and an allocation of $51
million for the Community Development Financial Institutions fund. On September 4,
2003, the Senate Appropriations Committee marked up its version of the VA/HUD
Appropriations bill. Consistent with the House VA/HUD Appropriations bill, the Senate
also included $1.5 billion for the CLF. The Senate version further provided $1.5 million
for loans and technical assistance to community development credit unions and
earmarked $700,000 for loans and $800,000 for technical assistance to low income, and
community development credit unions. These programs are all housed under the
Community Development Revolving Loan Fund (CDRLF) program. The full Senate has
yet to approve this measure.

BANKRUPTCY CODE REFORM UPDATE

Last year’s bankruptcy bill, The Bankruptcy Abuse Prevention and Consumer Protection
Act of 2003 (H.R. 975) was overwhelmingly passed by both the House and Senate,
although controversial language in the legislation prevented a final vote. With regard to
credit unions, the reforms would preserve voluntary reaffirmation authority for credit
union members; provide a “means” test so those debtors who can repay some part of their
debt do so; establish mandatory debtor education programs; and contain a measure
dealing with bilateral netting agreements for credit unions. With the controversial
language removed from the legislation, H.R. 975 was passed by the House and is now
headed for the Senate. Last year, more than 240,000 credit union members filed for
bankruptcy. As non-profit financial cooperatives, credit unions are forced to pass on the
cost of bankruptcy filings to other members in the form of higher interest rates on loans
and lower dividend payments on share and share draft accounts.




                                            8
OIG Semiannual Report                                                      September 2003


DEPOSIT INSURANCE REFORM LEGISLATION PENDING

On April 2, 2003, the House passed bill H.R. 522, which is intended to reform the deposit
insurance system. A second reform bill, S. 229, has been introduced in the Senate, but
not yet passed. Federal “deposit” and “share” insurance is provided only by the Federal
Deposit Insurance Corporation (FDIC) and the National Credit Union Share Insurance
Fund (NCUSIF), respectively. The FDIC is currently managing separate funds for banks
and thrifts, which the FDIC would like to merge into a single fund. Additionally, there is
some interest in increasing deposit insurance coverage above the current $100,000 level.
The legislation introduced in the 108th Congress proposes several structural changes in
the deposit insurance system for the FDIC, and proposes an increase in coverage levels
for both the FDIC and the NCUSIF.

HOUSE AND SENATE CONFEREES FINISH NEGOTIATING CHECK
TRUNCATION BILL

Check truncation legislation was introduced in Congress to transform the U.S. payment
system from a physical one to an electronic one. “Truncation” means to remove an
original paper share draft (check) from the collection or return process and in its place to
send a substitute share draft or, by agreement, information relating to the original share
draft (i.e., electronic image). While most credit unions have had “truncated” share drafts
since 1974, current check truncation legislation would allow the process to occur earlier
in the clearing system. The House and Senate Conferees finished negotiating the bill on
October 1, 2003, and it is expected to be signed into law by the President in the near
future.




                                             9
OIG Semiannual Report                                                  September 2003



             OFFICE OF THE INSPECTOR GENERAL


T     he Office of the Inspector General was established at the NCUA in 1989 under the
      authority of the Inspector General Act of 1978, as amended in 1988. The staff
      consists of the Inspector General, Deputy Inspector General for Audits, Counsel to
the Inspector General, Senior Special Agent, two Senior Auditors, Senior Information
Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.




                                          10
OIG Semiannual Report                                                      September 2003



                                AUDIT ACTIVITY
AUDIT REPORTS ISSUED

Independent Evaluation of NCUA’s Information Security Program
OIG-03-06 September 12, 2003

The Federal Information Security Management Act (FISMA) permanently reauthorized
the framework laid out in the Government Information Security Reform Act of 2000
(GISRA) which expired in November 2002. FISMA continues annual review and
reporting requirements introduced in GISRA.

During 2003, the OIG engaged Cotton & Company LLP to conduct an independent
evaluation of NCUA’s information systems (IS) and security program and controls for
compliance with FISMA, Title III of the E-Government Act of 2002, and Office of
Management and Budget (OMB) Circular A-130, Appendix III. This report discusses the
effectiveness of IS controls to protect and secure NCUA's information technology (IT)
infrastructure and assets.

Overall, the evaluation determined that NCUA’s information security program does not
fully meet the minimum security requirements of OMB Circular A-130, Management of
Federal Resources, Appendix III, Security of Federal Automated Information Resources
(A-130). Two significant deficiencies exist in the NCUA IT infrastructure. First we
noted several weaknesses related to the underlying general support systems and network.
This is significant because every application relies on the security of the operating system
on which it resides. Therefore if the underlying operating systems are not secure, then
the applications themselves cannot be assured of being secure.

Second, we determined that information stored on examiners’ laptop computers is not
adequately secured. For example, examiners frequently store credit union member
personal financial information on their laptop computers. We noted during our review
that the examiner laptops and the information stored on the laptops were not considered
in any system security plan or certification and accreditation document. In our judgment,
this information is quite sensitive and presents a significant security risk.

While we noted other significant weaknesses in IT controls, we concluded the two
conditions described above are the most significant to NCUA, and should be addressed as
soon as possible by NCUA’s Executive Director and Chief Information Officer.




                                            11
OIG Semiannual Report                                                    September 2003


OIG Report to OMB on NCUA Compliance With The Federal Information Security
Management Act 2003
OIG-03-07 September 12, 2003

The OMB issued Fiscal Year 2003 Guidance on Annual Information Technology
Security Reports on August 7, 2003. This guidance provided clarification to agencies for
implementing, meeting, and reporting FISMA requirements to OMB and the Congress.
This report contains a summary of our evaluation of the NCUA’s information security
program presented in the OMB prescribed format.

The OIG issued two reports during the past year that reported on the testing of the
effectiveness of information security and internal controls:

   •   On March 31, 2003, the OIG issued the Financial Statement Audit Report for the
       year ended December 31, 2002. The purpose of this audit was to express an
       opinion on whether the financial statements were fairly presented. In addition, the
       internal control structure was reviewed and an evaluation of compliance with laws
       and regulations was performed as part of the audit. The result of this audit was an
       unqualified opinion, stating that the financial statements were presented fairly.
       Although there were no material weaknesses identified during the review of the
       internal control structures pertinent to financial reporting, eight recommendations
       were made relating to weaknesses in the area of information security.

   •   On September 12, 2003, the OIG issued a report containing an Independent
       Evaluation of the NCUA’s Information Security Program - 2003. The content of
       the independent evaluation report supports the conclusions presented in this
       report.

In October 2002, the Chief Information Officer identified and reported 167 weaknesses to
OMB in the NCUA’s Plans of Action and Milestones (POA&M) report. Additionally,
the independent evaluation supporting this report identified 12 new weaknesses and made
specific recommendations to address those weaknesses. The table below shows the
current status of the weaknesses, along with the new recommendations identified in the
independent evaluation.

                     Description                           Number of Weaknesses
  Reported in NCUA’s FY 2002 POA&M                               167
  Completed/Implemented Fully During FY 2003                      45
  Partially Completed/Implemented                                 46
  New Weaknesses                                                  12
  FY 2002 Weaknesses Awaiting Implementation                      76
  As of August, 2003




                                           12
OIG Semiannual Report                                                     September 2003



Review of NCUA’s Member Complaint Process
OIG-03-08 September 25, 2003

Congress has charged NCUA with enforcing a broad range of federal consumer laws and
regulations in federally chartered credit unions and, in certain instances, state-chartered
credit unions. The NCUA is also required to report to Congress and other federal
agencies on credit unions’ compliance with certain of these laws and regulations. The
agency regularly receives inquiries and complaints regarding consumer compliance
issues from the public and credit union members throughout the nation. In addition, the
agency receives inquiries and complaints on subjects other than federal consumer laws
and regulations. During 2002, NCUA received approximately 2,000 inquiries and
complaints, about half of which alleged violations of regulations or consumer laws.

We reviewed the NCUA member complaint process in order to: (1) gather information to
determine the appropriate role for the agency; (2) evaluate the current process; and (3)
compare the current process with actions taken by four other federal financial institution
regulators in their handling of inquiries and complaints.

Current NCUA practice and guidance is for each regional office to respectively handle all
complaints it receives—those alleging regulatory and consumer compliance violations as
well as those that do not. While we identified a statutory requirement for NCUA’s
investigation of alleged violations of Federal consumer laws and regulations, we did not
identify a legal authority requiring NCUA to investigate or track complaints of a non-
statutory or non-regulatory nature. The NCUA’s Office of Examination and Insurance
(E&I), has agreed to revise the current agency Instruction (Instruction 12400.04,
Compliance Activities: Complaint Handling and Documentation of Violations, dated
September 5, 2002) for handling member complaints so that it no longer requires tracking
and monitoring of allegations that do not allege regulatory and consumer compliance
violations.

Overall, we found that NCUA’s six regional offices approached the task of handling
member complaints in a serious and responsible manner. We concluded that the NCUA
regions are effective in identifying, processing, and monitoring non-regulatory
complaints and that, overall, the process is working reasonably well in meeting credit
union members’ needs in an effective and timely manner.

Our report contains three recommendations for improving the national member complaint
process. The NCUA Office of General Counsel (OGC), and the NCUA Office of
Examination and Insurance (E&I) commented on our draft report. Both OGC and E&I
concurred with the report recommendations.




                                            13
OIG Semiannual Report                                                    September 2003


Management Advisory Report – King Street Parking Garage
OIG-03-09 September 25, 2003

The OIG is currently reviewing the operation of NCUA’s parking garage to (1) assess the
internal controls over the parking garage income and expenses; (2) determine whether
NCUA is receiving its correct parking garage net income; and (3) assess the
reasonableness of revenue variances and trends. In performing this review, we identified
a number of preliminary observations regarding the Parking Operations Agreement and
the Parking Management Agreement. We provided our preliminary observations to
NCUA’s Chief Financial Officer (CFO) in the form of a Management Advisory Report,
in order to provide timely information to the CFO for making suggested revisions to the
Parking Operations and Management Agreements. We plan to issue a final report on the
results of our review at the conclusion of our detailed audit.


AUDITS IN PROGRESS

Review of NCUA’s Parking Operations Agreement

It has been 10 years since NCUA originally entered into a parking lot operations
agreement for management and operation of the parking garage located directly under the
NCUA Central Office Building at 1775 Duke Street, Alexandria, Virginia. This review is
focusing on the controls in place to ensure the accurate reporting of revenue and expenses
related to NCUA’s parking spaces.

Review of NCUA’s Supervision of State Chartered Credit Unions

The objective of this review is to evaluate how NCUA supervises and monitors federally
insured, state chartered credit unions. This review will also evaluate how agreements are
negotiated between NCUA and the respective state supervisory authorities as well as the
adequacy of the agreements regarding supervision and monitoring of federally insured
state chartered credit unions.


SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As part of the 2003 Independent Evaluation of the Information Security Program, the
OIG verified implementation of recommendations made in the prior year’s Independent
Evaluation of NCUA's Information Security Program. The OIG was not provided with
sufficient evidence to demonstrate implementation of all recommendations contained in
the prior evaluation.

Based on the documentation provided, we could only validate 45 actions as completed
and another 46 partially completed. We could not verify implementation of the
remaining 76 recommendations because management informed us either that



                                           14
OIG Semiannual Report                                              September 2003


documentation was unavailable or that a management decision had been made not to
implement a recommendation. We discussed with management the importance of
disclosing recommendations that management has decided not to implement. We
requested that management provide the OIG and agency head with analysis when these
types of decisions are made.




                                       15
OIG Semiannual Report                                                    September 2003




                        INVESTIGATIVE ACTIVITY

      n accordance with professional standards and guidelines established by

 I    the Department of Justice, the OIG performs investigations of criminal,
      civil, and administrative wrongdoing involving agency programs. Our
      investigative jurisdiction focuses on activities designed to promote
economy, effectiveness, and efficiency, as well as fighting fraud, waste, and
abuse in agency programs. In addition to our efforts to deter misconduct and
promote integrity awareness among agency employees, we investigate referrals and direct
reports of employee misconduct.         Investigations may involve possible violations of
regulations regarding employee responsibilities and conduct, federal criminal law, and
other statutes and regulations pertaining to the activities of NCUA employees.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. We examine these complaints to determine
whether there is any allegation of NCUA employee misconduct. If not, we refer the
complaint to the appropriate regional office for response, or close the matter if contact
with the regional office indicates that the complaint has already been appropriately
handled.

During this reporting period, we worked closely with agency management at all levels to
substantially revise an agency- issued directive that set forth employees’ duties and
responsibilities for reporting misconduct to the OIG. The Inspector General introduced
the revised directive at a meeting of agency senior management and, in tandem with the
Director of Investigations, is planning further introductions of the directive at regional
offices and various agency meetings during the next reporting period.

Additionally, as a result of OIG concern regarding the release and control of IG
investigative reports and ensuing privacy concerns, the OIG entered into a Memorandum
of Understanding (MOU) with the agency’s Executive Director. The MOU addressed
distribution of investigative reports and use of the reports for administrative actions.

Also during this reporting period, we revised and significantly expanded the
investigations manual. The policy revisions were done in accordance with industry
standards and standards established by the President’s Council on Integrity and
Efficiency.




                                           16
OIG Semiannual Report                                                   September 2003




                        Investigative Operations


                           Contacts/inquiries/investigations carried 3
                             forward from previous reporting period

                           Contacts initiated during reporting period   6

                           Contacts closed                              7

                           Investigative reports issued                 3

                           Investigative subpoenas issued               1

                           Matters referred back to the agency          3

                           Management Implication Reports issued        1

                           Matters remaining open                       2



CLOSED INVESTIGATIONS

In the last reporting period, we reported on an investigation into allegations that an
employee was in violation of agency policy and a specific supervisory direction to reside
within her assigned duty station. Because the employee’s actual residence was
approximately 100 miles from her claimed address, the travel vouchers she routinely
submitted contained false information which resulted in her being paid a substantially
higher locality pay, and enabled her to obfuscate her actual hours of work. The United
States Attorney’s office authorized the use of administrative Kalkines warnings for this
investigation. During her interview with the OIG, the employee provided false testimony
while under the Kalkines immunity agreement. NCUA management has advised the OIG
that due to other considerations it plans no action in this matter.

Also in the last reporting period, we reported on two investigations of false voucher
claims and related falsification of attendance at a required agency training conference.
In one case, the employee provided false testimony while under a Kalkines immunity
agreement. The employee subsequently acknowledged the false statement during the
same interview. The agency suspended the employee for ten days. In the other case, the
employee admitted the false claim of attendance at the conference, as well as other false
claims. The agency suspended that employee for three days.




                                           17
OIG Semiannual Report                                                     September 2003


During this reporting period, we completed two (2) investigations. In one investigation,
the employee was alleged to have had an inappropriate relationship with a former
employee of a credit union and to have released confidential information to that
individual. The investigation did not substantiate the allegation. However, in the course
of the investigation, information was developed that the employee inappropriately
accepted gifts from a credit union employee. The agency counseled the employee on the
relevant ethics rules and age ncy policy regarding acceptance of gifts.

Another investigation concerned allegations regarding the potential misuse of authority
by an intra-agency committee designated to resolve policy disputes related to employee
relocations. The investigation determined that the committee had exercised authority
which exceeded the specific authority delegated to it by the agency. The OIG issued a
Management Implication Report recommend ing that the agency establish a policy which
clarifies the committee’s authority. No intentional wrongdoing was identified.

During this reporting period, we received three (3) referrals which we declined to
investigate and returned to the agency for appropriate follow- up and action, as necessary.

We issued one (1) IG Investigative Subpoena during this reporting period.

OPEN INVESTIGATIONS

The OIG has two (2) open investigations. One involves an ongoing initial inquiry into
allegations of contract fraud by a government contractor. Additionally, we have one
open investigation into possible Privacy Act violations.

AGENCY REFERRALS

During this reporting period the OIG received thirteen (13) written requests for
investigations of actions taken by credit unions. These matters were referred to the
respective regional offices for review and processing.




                                            18
OIG Semiannual Report                                                   September 2003



            LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review
existing and proposed legislation and regulations relating to the programs and operations
of NCUA and to make recommendations concerning their impact. Moreover, we
routinely review proposed agency instructions and other policy guidance, in order to
make recommendations concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and detection of fraud, waste and
abuse.

During the reporting period, the OIG reviewed 19 items, including proposed and final
changes to legislation, regulations, and agency Interpretive Ruling and Policy Statements
(IRPS).

            SUMMARY OF STATUTES AND REGULATIONS REVIEWED

       Legislation                                     Title
 H.R. 2622                 “Fair and Accurate Credit Transactions Act of 2003”
 S. 1334                   “Check Truncation Act of 2003”
 H.R. 975                  “The Bankruptcy Abuse Prevention and Consumer Protection
                           Act of 2003”
 S. 1359                   “International Money Transfer Disclosure Act and Money
                           Wire Improvement and Remittance (WIRE) Act”
 H.R. 2724                 Proposed Amendments to “Fair Credit Reporting Act”
 H.R. 2861                 “VA-HUD        and   Independent     Agencies     FY 2004
                           Appropriations”
 H.R. 522                  Deposit Insurance Reform

  Regulations/Rulings                                   Title
 12 CFR Part 740           Final Rule: “Accuracy of Advertising and Notice of Insured
                           Status”
 12 CFR Parts 703, 742     Final Rule: “Investment and Deposit Activities and
                           Regulatory Flexibility Program”
 12 CFR Part 709           Final Rule: “Involuntary Liquidation of FCUs and
                           Adjudication of Creditor Claims Involving Federally-Insured
                           CUs in Liquidation”
 Final IRPS 03-02          Amendment to Change Definition of Small Credit Union
                           Privacy Act Systems Notice/Board Action Memorandum
 12 CFR Part 745           Proposed Rule: “Share Insurance”
 12 CFR section            Interest Rate Ceiling
 701.21(c)(7)(ii)(c)
 12 CFR 723                Summary of Comments—Proposed Rule on MBLs and
                           Related Regulations


                                           19
OIG Semiannual Report                                          September 2003


12 CFR Part 708a     Proposed Rule: “Conversion of Insured CUs”
12 CFR Parts 702, 704,
                     Draft Final Rule: “PCA; Corporate Credit Unions; CUSOs;
712, 723, 742        MBLs’ Reg Flex Program”
12 CFR section 701.20Proposed Rule: “Surety and Guaranty Agreements and Waiver
                     Requests by FISCUs from the Maximum Borrowing
                     Limitation
12 CFR 748 and App.B Proposed Rule for Comment: “Guidance on Response
                     Programs for Unauthorized Access to Member Information
                     and Member Notice”




                                     20
OIG Semiannual Report                                                       September 2003



                                      TABLE I

                    INSPECTOR GENERAL ISSUED REPORTS
                          WITH QUESTIONED COSTS

                                                   Number of   Questioned     Unsupported
                                                    Reports      Costs           Costs

A.     For which no management
       decision had been made by the                  0           $0               $0
       start of the reporting period.

B.     Which were issued during the
       reporting period.                              0            0               0

       Subtotals (A + B)                              0            0               0

C.     For which management decision
       was made during the reporting                  0            0               0
       period.

       (i) Dollar value of disallowed costs           0            0               0

       (ii) Dollar value of costs not                 0            0               0
       disallowed

D.     For which no management
       decision has been made by the end              0            0               0
       of the reporting period.

E.     Reports for which no management
       decision was made within six                   0            0               0
       months of issuance.


Questioned costs are those costs the OIG has questioned because of alleged violations of
laws, regulations, contracts, or other agreements; findings which at the time of the audit
are not supported by adequate documentation; or the expenditure for the intended purpose
is unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has
questioned because of the lack of adequate documentation at the time of the audit.




                                              21
OIG Semiannual Report                                                  September 2003



                                     TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A             N/A

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A             N/A

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          22
OIG Semiannual Report                                           September 2003



                                TABLE III

                     SUMMARY OF OIG ACTIVITY
              APRIL 1, 2003 THROUGH SEPTEMBER 30, 2003

PART I – AUDIT REPORTS ISSUED
Report                                                              Date
Number     Title                                                    Issued
OIG-03-06  Independent Evaluation of NCUA’s Information Security    9/12/2003
           Program
OIG-03-07  OIG Report to OMB on NCUA’s Compliance With The          9/12/2003
           Federal Information Security Management Act
OIG-03-08  Review of NCUA’s Member Complaint Process                9/25/2003
OIG-03-09  Management Advisory Report – King Street Parking         9/25/2003
           Garage

PART II – AUDITS IN PROCESS (as of September 30, 2003)
           Review of NCUA’s Parking Operations Agreement
           Review of NCUA’s Supervision of State Chartered Credit Unions




                                      23
OIG Semiannual Report                                              September 2003



             INDEX OF REPORTING REQUIREMENTS

 SECTION                       DATA REQUIRED                        PAGE REF
  4(a)(2)    Review of Legislation and Regulations                     19
  5(a)(1)    Significant Problems, Abuses, or Deficie ncies            11
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant                11
             Problems, Abuses, or Deficiencies.
  5(a)(3)    Significant Recommendations Described in Previous          14
             Semiannual Reports on Which Corrective Action Has
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution               None
             Authorities and Prosecutions, Which Have Resulted.
  5(a)(5)    Summary of Each Report to the Board Detailing            None
             Cases Where Access to All Records Was Not
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting          23
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.               11
  5(a)(8)    Statistical Tables on Audit Reports With Questioned        21
             Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                   22
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the           None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any           None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management            None
             Decisions With Which the Inspector General is in
             Disagreement.




                                        24
OIG Semiannual Report                                      September 2003




                        WE WANT TO HEAR FROM YOU



                CALL THE OIG HOTLINE




                        TOLL FREE 1-800-778-4806

                        WASHINGTON METRO AREA
                            703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                   25
